Report No. D-2009-102                September 18, 2009




     Price Reasonableness Determinations for Contracts
           Awarded by the U.S. Special Operations
                         Command
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or to request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932 or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations

BCM                   Business Clearance Memorandum
DCG                   Desktop Contracting Guide
FAR                   Federal Acquisition Regulation
GWOT                  Global War on Terror
IG                    Inspector General
SOFARS                Special Operations Federal Acquisition Regulation
                       Supplement
USSOCOM               U.S. Special Operations Command
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON , VIRGINIA 22202-4704



                                                                       September 18, 2009

MEMORANDUM FOR UNDERSECRETARY OF DEFENSE FOR ACQUISITION,
                TECHNOLOGY, AND LOGISTICS
              COMMANDER, U.S. SPECIAL OPERATIONS COMMAND


SUBJECT: Price Reasonableness Determinations for Contracts Awarded by the U.S.
          Special Operations Command (Report No. 2009-102)

Weare providing this report for your information and use. We considered management
comments on the draft of this report in preparing the final report.

Comments on the draft of this report conformed to the requirements of DOD Directive
7650.3 and left no unresolved issues. Therefore, we do not require any additional
comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9071 (DSN 664-9071).




                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2009-102 (Project No. D2008-D000CG-0123.000)                          September 18, 2009


              Results in Brief: Price Reasonableness
              Determinations for Contracts Awarded by
              U.S. Special Operations Command
                                                       USSOCOM internal controls were not adequate
What We Did                                            to ensure that USSOCOM contracting officials
We reviewed a sample of 15 contracts with a            approved required contracting documentation or
value of about $2.4 billion to determine whether       that the contract files contained the supporting
the U.S. Special Operations Command                    documentation of the price reasonableness
(USSOCOM) complied with Federal                        decisions. In addition, the USSOCOM policies
Acquisition Regulation requirements when               and procedures did not address the alpha
determining price reasonableness. We selected          contracting methods being used to negotiate the
the sample from 734 contracts with a value of          contracts.
$3.3 billion that USSOCOM identified for
FY 2003 through FY 2007.                               What We Recommend
                                                       We recommend that the Commander,
What We Found                                          USSOCOM, improve contracting internal
On 4 of 15 contracts, USSOCOM contracting              controls by emphasizing to contracting
officials did not perform or document the price        personnel that they comply with the Federal
reasonableness determination in accordance             Acquisition Regulation when performing and
with the Federal Acquisition Regulation. In            documenting their price reasonableness
total, USSOCOM did not adequately document             determinations, as well as require the periodic
$721 million in negotiated prices on the four          review of contract files to determine that they
contracts. Of the $721 million, USSOCOM did            contain the required documentation and the
not adequately support $356 million on one             necessary signatures.
contract for commercial hardware items. On two
contracts, we were unable to fully evaluate the        We also recommend an update to the
contracting officers’ price reasonableness             USSOCOM Desktop Contracting Guide to
decisions because essential documentation was          include policy and procedures for all contracting
not retained as part of the contract file. As a        methods that comply with the Federal
result, we were unable to verify USSOCOM’s             Acquisition Regulation.
analyses of the $360 million not-to-exceed
amount for time-and-materials and firm-fixed-          Management Comments and
price direct labor costs. On the final contract,       Our Response
USSOCOM did not completely translate the               The Director, Center for Acquisition and
supporting documentation for $5.0 million into         Logistics (responding for the Commander,
English.                                               USSOCOM), agreed with all three
                                                       recommendations in the report. The comments
                                                       were responsive to the intent of the
                                                       recommendations. Please see the
                                                       recommendations table on the back of this page.




                                                   i
Report No. D-2009-102 (Project No. D2008-D000CG-0123.000)          September 18, 2009

Recommendations Table
Management                      Recommendations             No Additional Comments
                                Requiring Comment           Required
Commander, U.S. Special                                     1, 2, and 3
Operations Command




                                          ii
Table of Contents

Results in Brief                                                 i

Introduction                                                     1

       Objective                                                 1
       Background                                                1
       Review of Internal Controls                               1

Finding: Price Reasonableness of U.S. Special Operations
Command Contracts                                                3

       Recommendations, Management Comments, and Our Response    10

Appendices

       A. Scope and Methodology                                  12
              Prior Coverage                                     13
       B. Contracts Reviewed                                     14
       C. Management Comments on the Finding and Our Responses   16

Management Comments

       U.S. Special Operations Command                           20
Introduction
Objective
The audit objective was to determine whether the U.S. Special Operations Command
(USSOCOM) complied with Federal Acquisition Regulation (FAR) requirements for
determining price reasonableness.

We performed this audit pursuant to Public Law 110-181, "The National Defense
Authorization Act for Fiscal Year 2008," section 842, "Investigation of Waste, Fraud, and
Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan," January
28, 2008. Section 842 requires "thorough audits . . . to identify potential waste, fraud, and
abuse in the performance of (1) Department of Defense contracts, subcontracts, and task
and delivery orders for the logistical support of coalition forces in Iraq and Afghanistan;
and (2) Federal agency contracts, subcontracts, and task and delivery orders for the
performance of security and reconstruction functions in Iraq and Afghanistan."

See Appendix A for discussion of scope, methodology, and prior audit coverage.

Background
USSOCOM is one of 10 Combatant Commands. USSOCOM’s mission is to provide
fully capable special operations forces to defend the United States and its interests and to
plan and synchronize operations against terrorist networks.

The Nunn-Cohen Amendment of 1986 (section 167, title 10, United States Code)
establishes USSOCOM as a Combatant Command. The Amendment also provides the
authority, direction, and control of funds that allow the development and acquisition of
special operations equipment and the preparation of special operations forces to carry out
assigned missions.

USSOCOM’s initial responsibility was to organize, train, and equip special operations
forces from the Army, Navy, and Air Force. In 2002, the Secretary of Defense expanded
USSOCOM’s role to include leading DOD’s GWOT operations. Marine Corps special
operations forces were added to USSOCOM’s responsibilities in early 2006.

Today, USSOCOM serves as the lead combatant commander for planning,
synchronizing, and as directed, executing global operations against terrorist networks.
USSOCOM is headquartered at MacDill Air Force Base in Tampa, Florida.


Review of Internal Controls
We determined internal control weaknesses in USSOCOM existed as defined by DOD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006. USSOCOM contracting officials did not approve required documentation or
document their price reasonableness decisions. In addition, the USSOCOM policies and


                                             1
procedures did not address alpha contracting methods being used to negotiate the
contracts. Implementing Recommendations 1, 2, and 3 will improve these conditions.
USSOCOM has begun corrective action to ensure contract files contain supporting
documentation. A copy of the final report will be provided to the senior USSOCOM
official responsible for internal controls in USSOCOM.




                                          2
Finding. Price Reasonableness of U.S.
Special Operations Command Contracts
USSOCOM contracting officials did not always comply with the FAR when performing
and documenting fair and reasonable price determinations. Of the 15 contracts reviewed,
with a value of about $2.4 billion, we identified 4 contracts that had negotiated contract
prices of about $721 million that did not comply with the FAR for supporting and
documenting price reasonableness decisions. The price reasonableness determinations did
not comply with the FAR because:

       On one contract, the contracting specialist used the contractor’s catalogs for
        determining the price reasonableness of $356 million in commercial hardware
        items. The contracting specialist’s approach did not include the additional
        documentation for commercial items required in the FAR.
       On two contracts, USSOCOM did not retain documentation from Internet
        searches used to support the contracting officers’ price reasonableness
        determinations on the $360 million not-to-exceed amount for time-and-materials
        and firm-fixed-price direct labor costs.
       On another contract, the contracting officials did not completely translate the cost
        proposal and other supporting documentation from a foreign contractor into
        English. Therefore, we could not evaluate the price reasonableness determination
        for $5.0 million.
       Other factors affecting USSOCOM price reasonableness determinations were the
        condition of the electronic contracting files, use of sole-source contracts, and the
        lack of policy and procedures for using the alpha contracting method.

As a result, we were unable to verify USSOCOM price reasonableness determination
decisions involving $721 million in negotiated contract prices on four contracts.

Price Reasonableness Criteria
The FAR requires that contracting officials make price reasonableness determinations
prior to awarding a contract, and that documentation supporting these determinations is in
the contract file. The criteria include FAR Subpart 15.402, “Pricing Policy,” which states:

        Contracting officers must --
                 (a) Purchase supplies and services from responsible sources at fair and
                 reasonable prices. In establishing the reasonableness of the offered
                 prices, the contracting officer must not obtain more information than is
                 necessary. To the extent that cost or pricing data are not required by
                 15.403-4, the contracting officer must generally use the following order
                 of preference in determining the type of information required:
                 (1) No additional information from the offeror, if the price is based on
                 adequate price competition, except as provided by 15.403-3(b).
                 (2) Information other than cost or pricing data:
                           (i) Information related to prices (e.g., established catalog or
                           market prices or previous contract prices), relying first on


                                                    3
                       information available within the Government; second, on
                       information obtained from sources other than the offeror; and,
                       if necessary, on information obtained from the offeror. When
                       obtaining information from the offeror is necessary, unless an
                       exception under 15.403-1(b) (1) or (2) applies, such
                       information submitted by the offeror shall include, at a
                       minimum, appropriate information on the prices at which the
                       same or similar items have been sold previously, adequate for
                       evaluating the reasonableness of the price.
                       (ii) Cost information, that does not meet the definition of cost
                       or pricing data at 2.101.
               (3) Cost or pricing data. The contracting officer should use every
               means available to ascertain whether a fair and reasonable price can be
               determined before requesting cost or pricing data. Contracting officers
               must not require unnecessarily the submission of cost or pricing data,
               because it leads to increased proposal preparation costs, generally
               extends acquisition lead time, and consumes additional contractor and
               Government resources.

Additionally, FAR Subpart 6.303-2, “Content,” states that a sole-source contract or award
of any contract without providing full and open competition shall have a justification that
includes a determination by the contracting officer that the anticipated cost to the
Government will be fair and reasonable. FAR Subpart 4.803, “Content of Contract Files,”
provides examples of the records normally kept in the contract files. These records
include the contractor’s proposal, cost or price analysis, audit reports, and Certificates of
Current Cost and Pricing Data.

USSOCOM Contracting Procedures
USSOCOM contracting officers used the Business Clearance Memorandum (BCM) as
the primary document summarizing the contract negotiations. The USSOCOM Desktop
Contracting Guide (DCG), chapter 15(4)(a), “Documenting the Negotiation,” states that
the purpose of the BCM is to document all the discussions and pertinent information that
formulate the business decisions made during the procurement process and the rationale
for them. The Special Operations Federal Acquisition Regulation Supplement (SOFARS)
requires BCMs to be approved and signed before a contract or a modification is executed.
SOFARS 5615.406-1(a), “Pre-negotiation Objectives,” requires contracting officers to
obtain business clearance approval prior to entering into negotiations or discussions and
to document the negotiation objectives in the BCMs. SOFARS 5615.406-3-90(b),
“Documenting the Negotiation,” further requires the contracting officer to obtain contract
clearance approval after completion of negotiations or discussions and prior to award. It
also requires that the completed BCM, including post-negotiation information, be
included in the contract file.

Price Reasonableness Determination for Commercial Items
USSOCOM awarded one contract for commercial items without independently verifying
the accuracy of the contractor’s catalog prices in accordance with the FAR. Contract
H92222-07-D-0008, valued at $422 million, was for the procurement and sustainment of
a high-frequency radio system. The contract included 173 contract line item numbers
primarily for hardware items with a value of $356 million. The contractor supplied


                                                  4
catalogs to support the pricing for the contract line item numbers. According to the BCM,
USSOCOM received a 20 percent discount off the catalog prices as a “most favored
customer.”

The BCM stated that the contract specialist used the proposed contractor’s catalogs to
determine the contractor prices as fair and reasonable without any further analysis. For
the items not listed in the commercial catalogs, the contract specialist verified the
accuracy of the mathematical calculations in the contractor’s cost build-up information.
FAR Subpart 15.403-3(c)(1), “Requiring Information Other Than Cost or Pricing Data,”
states that inclusion of a price in a catalog does not in and of itself establish fairness and
reasonableness of the price.

FAR Subpart 12.209, “Determination of Price Reasonableness,” requires price
reasonableness for commercial items to be established in accordance with FAR
Subpart 15.4, “Contract Pricing.” FAR 15.402(a)(2), “Pricing Policy,” states that in
evaluating price reasonableness the contracting officer should first rely on information
available within the Government; second, on information obtained from sources other
than the contractor; and, if necessary, on information obtained from the contractor. The
pricing method for commercial items in FAR Subpart 15.403-3(a), “Requiring
Information Other Than Cost or Pricing Data,” states that if the contracting officer cannot
obtain adequate information from sources other than the contractor, the contracting
officer must require submission of information other than cost or pricing data from the
contractor to determine a fair and reasonable price. The contracting officer must require
that the information submitted by the contractor include, at a minimum, appropriate
information on the prices at which the same item or similar items have previously been
sold. The contracting officer did not perform any additional analysis beyond the prices in
the sales catalog. Although USSOCOM received a 20 percent discount off the catalog
prices, without additional analysis or similar sales data, the Government has no basis for
relying on the catalog prices.

Documenting the Price Reasonableness Determinations
USSOCOM did not comply with the FAR for documenting the determination that prices
negotiated were fair and reasonable for three contracts valued at $527 million. As a
result, we were unable to fully evaluate the contracting officers’ price reasonableness
determination decisions for $365 million in negotiated prices on these contracts. FAR
Subpart 4.803 requires the contract file to contain the signed contract or award, contract
modifications, and documents supporting modifications executed by the contracting
office. The Defense Procurement Acquisition Policy, Contract Pricing Reference Guide,
volume 1, “Price Analysis,” chapter 10, “Documenting Pricing Actions,” states:

               Good documentation is essential to good contracting. As time goes on,
               you forget times, dates, persons involved, and other elements that are
               important in all aspects of contracting and pricing in particular … Lack
               of documentation is generally treated as a lack of action. If it is not
               documented, it never happened.




                                                  5
FAR Subpart 15.406-3(a), “Documenting the Negotiation,” requires the contracting
officer to document the principal elements of the negotiated agreement in the contract
file. The documentation should include the purpose of the negotiation, a summary of the
contractor’s proposal, any field pricing assistance recommendations, and documentation
of fair and reasonable pricing.

Contract H92222-07-D-0015
This contract was a sole-source award to an Alaskan Native Corporation to build, field,
and sustain the Psychological Operations Print System Program. The delivery order
contract had a not-to-exceed price of $260 million, which included $180 million for time-
and-materials and firm-fixed-price direct labor costs. According to the BCM, price
reasonableness for the direct labor was evaluated by randomly selecting from the
contractor’s accounting system salary information for 33 percent of the proposed labor
categories. The contractor’s salary information was compared with salary information
found on the Department of Labor and Salary.com Web sites. USSOCOM then compared
the contractor’s fully burdened labor rates with five other firms with similar labor
categories descriptions (that is, education, experience, credentials). Of the five firms, four
were GSA schedule holders on the Professional Engineering Services schedule and one
contractor was a manufacturing company with a USSOCOM contract.

Contract H92222-07-D-0017
This was a 5-year indefinite-delivery, indefinite-quantity contract for professional
engineering and technical services to support the Psychological Operations Program
Office. The contract was a sole-source award to an Alaskan Native Corporation. The
delivery order contract had a not-to-exceed price of $260 million, which included
$180 million in time-and-materials and firm-fixed-price direct labor costs. The analysis
of the direct labor costs described in the BCM was similar to the analysis performed for
H92222-07-D-0015. The one exception was that the Defense Contract Audit Agency
performed an audit of the direct labor costs for another proposal that the contractor had
submitted for a contract being awarded by the U.S. Army Communications Electronics
Life Cycle Management Command. The Defense Contract Audit Agency audit
“questioned a portion of the direct labor rates for 92 of the proposed 143 labor
categories.” In addition, the Defense Contract Audit Agency expressed the opinion that a
free salary service such as Salary.com does not provide a reasonable and reliable basis for
labor compensation rates.

On contracts H92222-07-D-0015 and H92222-07-D-0017, the contracting officer
explained that a printout of the information obtained from the Web sites was not included
in the contracting file since it could be accessed through the Web sites listed in the BCM.
We performed a limited review of the labor categories listed in the BCM using the Web
sites and were unable to recreate or duplicate the contracting specialist’s results. In this
instance, listing the Web sites in the BCM is not sufficient documentation to support the
price reasonableness determination. In addition, the contract file did not contain the
details on the comparison of the fully burdened rates. The contracting officer explained
that a support contractor performed the comparison “but did not provide the information
to the contracting office, nor did the support contractor file the documentation in the


                                              6
electronic contract file.” Without the printouts from the Web sites and the supporting
documentation on the fully burdened labor rates, we were unable to fully evaluate the
contracting officer’s price reasonableness determination decision. We also agree with the
Defense Contract Audit Agency that performing Internet searches of free salary services
does not provide a reliable basis for assessing the reasonableness of the contractor’s
direct labor rates.

Contract USZA22-03-C-0038
This was a sole-source award based on unusual and compelling urgency made to a
Swedish company for the purchase of anti-structure munitions for the M3 rifle. It was a
firm-fixed-price contract for about $6.9 million. USSOCOM contracting officials
definitized the contract in modification 2 and did a price reasonableness determination.
According to the BCM, USSOCOM determined price reasonableness by relying on the
contractor’s cost and pricing data and an audit performed by the auditing agency of the
Swedish government. The contract file did not contain a Certificate of Current Cost or
Pricing Data.

The BCM explained that “an audit by DCAA [Defense Contract Audit Agency] was
anticipated, but due to extreme delays with the contractor submitting a qualifying
proposal, there was not sufficient time for an audit.” Instead, the cognizant auditing
agency of the Swedish government conducted the audit that USSOCOM relied on to
determine price reasonableness. However, the audit report provided to USSOCOM was
in Swedish. Contracting officials did not completely translate either the audit report or the
proposal documents into English when evaluating the contractor’s proposal. Because of
this, we were unable to fully evaluate the contracting officer’s price reasonableness
determination, valued at $5.0 million. For instance, a significant cost element—direct
labor rates—was not translated. Therefore, we could not verify that USSOCOM properly
evaluated the labor categories when determining price reasonableness. In addition, the
justification for not using the Defense Contract Audit Agency to audit the proposal was
questionable, since USSOCOM did not negotiate the definitized price until modification
2, which was more than 4 months from the date of the initial contract award.

USSOCOM’s Electronic Contract Files
USSOCOM’s official electronic contracting files were not sufficient, organized, or
complete. The files provided appeared to be a data dump of documents that could have
been related to the contract. The contracting files contained documents that were missing
the required contracting officials’ signatures and in some instances, the files did not
include the required documentation.

Business Clearance Memorandum
We identified seven contracts that had unsigned BCMs in the contract files. The BCMs
supported contracting actions that ranged from $649,949 to $300 million. SOFARS
attachment 5601-1 requires that appropriate levels of authority review and approve
BCMs prior to contract award. Review and approval procedures must be in accordance
with the dollar value limitations specified. For example, for the period from March



                                             7
2002 through February 2007—the period covered by most of the contracts reviewed—the
reviews specified were as follows.

                                Table. Review and Approval Process

              Action                                Review                             Approval
$500,000 to $5,000,000                               Legal                       Contracting Officer
$5,000,000 to $50,000,000                            Legal                           Branch Chief
Over $50,000,000 to $100,000,000                     Legal                    Chief, Contracting Officer
Over $100,000,000                              SOAL-KA* and Legal                     SOAL-KA*
*
    Special Operations Acquisition and Logistics-Field Assistance Division.

The review and approval of the BCM is an important internal control over the award of
the contracts and the contract prices. Without a signed BCM the contracting officer
cannot be assured that management would approve of the prices paid or the negotiation
process. USSOCOM officials are aware of the issues related to the insufficiency of these
files and are taking action to resolve these issues and bring the files into conformance
with the FAR.

Missing Documents
The electronic contract files that USSOCOM provided did not always contain required
documentation. As discussed previously, the contract files for H9222-07-D-0015 and
H9222-07-D-0017 did not contain documentation on a support contractor’s analysis of
the fully burdened labor rates. Two other contract files (H92222-05-C-0016 and
USZA22-03-C-0038) did not have the Certificates of Current Cost and Pricing Data
required by FAR 15.406-2. Another contract file for H92222-05-D-0002 contained only
one of the two contractor proposals referred to in the BCM.

Other Factors Affecting the Price Reasonableness
Determinations
We identified two additional factors that could affect the contracting officer’s price
reasonableness determinations: USSOCOM use of sole-source contracts and alpha
contracting.

Sole-Source Contracts
USSOCOM awarded 10 of 15, or 67 percent, of the sample contracts on a sole-source
basis. The 10 contracts had an estimated total value of $2 billion, which represented
81 percent of the total dollar value for the 15 contracts reviewed. The FAR allows
USSOCOM contracting officials to award the sole-source contracts with the appropriate
justification. We did not review the adequacy of the sole-source justifications for these
contracts to determine their compliance with the FAR.

USSOCOM use of sole-source contracts is not necessarily in the best interest of the
Government. As the Administrator, Office of Federal Procurement Policy, explained in a
May 31, 2007, memo, “competition is the cornerstone of our acquisition system.” He


                                                      8
reemphasized the need for competition, stating that the benefits are savings for the
taxpayer, improved contractor performance, reduced fraud, and promote accountability
for results. In distributing the Administrator’s memo to DOD, the Director, Defense
Procurement and Acquisition Policy, stated that DOD needed to place greater emphasis
on promoting competition, including placement of delivery orders against multiple-award
contracts.

Alpha Contracting Method
USSOCOM contracting officials used the alpha contracting method when negotiating six
of the contracts valued at $1.4 billion. USSOCOM officials provided us a document from
the Internet to explain alpha contracting. According to the document, alpha contracting is
an integrated product team approach that involves officials of the requiring department,
the contracting office, auditors, the contractor, and the principal subcontractors. The
group jointly develops the technical and cost details of the contract agreement.
USSOCOM did not have any formal policies and procedures specifying how to
implement alpha contracting. Based on the number of contracts negotiated using alpha
contracting and their dollar value, USSOCOM needs to establish an internal control over
the process. Specifically, USSOCOM needs to establish formal policies and procedures
governing the use of the alpha contracting method.

Actions Taken by USSOCOM
During our audit, USSOCOM contracting officials provided us a briefing on actions
being taken to resolve deficiencies in the electronic contract files. The briefing identified
problems with the contract files that included documents with missing signatures, missing
files, and too many versions of the same document. Specific actions that USSOCOM
contracting officials were taking included updating the DCG, chapter 4, “Administrative
Matters,” providing training to the contracting directorate on improving the contract files
chain of custody, contract file organization, and scanning in the signed/final documents.
USSOCOM has updated the SOFARS 5607.104(f) and the DCG, chapter 7, “Acquisition
Planning,” to include guidance and procedure for the alpha contracting methodology.
USSOCOM’s memo for the support of the FY 2009 Annual Statement of Assurance
acknowledged the material weakness of the electronic contract file documentation,
specifically, documenting fair and reasonable prices. In addition, USSOCOM issued
instructions on how to handle contracting documents missing a signature or a date or
both. The contracting officials stated that the problems with the contract files were in part
attributable to the increased workload from wartime requirements and a shortage of
trained contracting personnel. USSOCOM officials stated they had hired additional
personnel, which should help in correcting these problems.

Conclusion
We commend the actions that USSOCOM is taking on the contract files. We agree that
the increased workload from the wartime requirements could affect the quality of the
documentation. However, USSOCOM needs to take additional actions related to the price
reasonableness determinations. USSOCOM needs to ensure that the contracting officers
are adequately supporting and documenting their decisions. Without the required


                                             9
analyses and supporting documentation, we cannot determine whether USSOCOM is
consistently obtaining fair and reasonable prices for items and services procured.

Management Comments on the Finding and Our
Response
Although not required, the Director, Center for Acquisition and Logistics, responding for
the Commander of USSOCOM, provided comments on the findings. See Appendix C for
a summary of management comments and our response.

Recommendations, Management Comments, and Our
Response
We recommend that the Commander, U.S. Special Operations Command, improve
contracting internal controls by:

1. Emphasizing to U.S. Special Operations Command contracting personnel that
they:
    a. Comply with the Federal Acquisition Regulation when performing price
analysis for commercial items.
    b. Retain as part of the contract file the supporting documentation used to make
the price reasonableness determinations.
    c. Have a signed and approved Business Clearance Memorandum before making
the contract awards.

USSOCOM Comments
The Director, Center for Acquisition and Logistics of USSOCOM, responding for the
Commander, agreed with the recommendation. Specifically, the director stated that
USSOCOM will continue to comply with price analysis requirements for commercial
items. The director stated USSOCOM has provided formal training on multiple pricing
topics for USSOCOM at Headquarters and Field Contract Offices. The director further
stated that the training is available electronically on USSOCOM’s Directorate of
Procurement Training Bookshelf.

The director also stated the Directorate of Procurement identified file documentation as a
material weakness in the FY 2008 Annual Statement of Assurance and in FY 2009, the
Annual Statement of Assurance included the results of the DOD IG’s draft audit report,
“Price Reasonableness Determinations for Contracts Awarded by the U.S. Special
Operations Command.” As a result, USSOCOM codified and implemented an electronic
file management methodology. The director stated metrics were established to provide an
aggregate assessment of each office’s compliance with the FAR in regards to
documenting fair and reasonable price determinations. In addition, the director stated the
SOFARS was updated in July 2008 in regards to the independent contract file reviews.

The director stated USSOCOM provided training and they will continue to emphasize the
importance of documenting the fair and reasonable price. Finally, the director stated
USSOCOM also plans to conduct an internal Directorate of Procurement Management


                                           10
Review in the third quarter of FY 2010 to verify USSOCOM’s management of electronic
files.

Our Response
The director’s comments are responsive to the intent of the recommendations. No further
comments are required.

2. Requiring the periodic review of contract files to determine that the files contain
the required documentation, that the documentation has the necessary signatures,
and that support exists for the price reasonableness determination decisions.

USSOCOM Comments
The Director, Center for Acquisition and Logistics of USSOCOM, responding for the
Commander, agreed with the recommendation and stated in addition to the actions
already taken for Recommendation 1, an internal Department of Procurement
Management Review will be performed during the third quarter of FY 2010 to ensure the
corrective actions are implemented effectively.

Our Response
The director’s comments are responsive to the intent of the recommendation. No further
comments are required.

3. Updating the U.S. Special Operations Command Desktop Contracting Guide to
include policy and procedures for all contracting methods to ensure they are in
accordance with the Federal Acquisition Regulation, prevent inconsistencies in its
application, and provide adequate supporting documentation.

USSOCOM Comments
The Director, Center for Acquisition and Logistics of USSOCOM, responding for the
Commander, agreed with the recommendation and stated USSOCOM is continually
updating the SOFARS and the DCG to address statutory and regulatory guidance and to
implement acquisition best practices. The director stated USSOCOM will be updating the
SOFARS to address the proper documentation of fair and reasonable price determinations
by the first quarter of FY 2010.

Our Response
The director’s comments are responsive and the actions meet the intent of the
recommendation. No further comments are required.




                                           11
Appendix A. Scope and Methodology
We conducted this performance audit from April 2008 through May 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We focused our efforts on USSOCOM Headquarters procurement contracts greater than
$5 million awarded or administered during FY 2003 through FY 2007. We reviewed the
contracts to determine whether USSOCOM complied with FAR requirements for
determining price reasonableness.

In addition, we:

      Obtained a list of 734 procurement contracts valued at $3.3 billion from
       USSOCOM. These contracts were awarded or administered by USSOCOM
       Headquarters during FYs 2003 through 2007. This list was used as the overall
       contract universe. We identified 57 contracts greater than $5 million. Of those
       57 contracts, 2 were removed based on prior audit coverage. The remaining
       55 contracts had a total contract value of $3.0 billion.

      Coordinated with the Quantitative Methods and Analysis Division to develop a
       sample of 15 contracts from the 55 contracts over $5 million. The sample was
       chosen by selecting the 5 highest valued contracts and then drawing a simple
       random sample of 10 from the remaining 50 contracts. The 15 contracts selected
       were valued at $2.4 billion. We used statistical methods to draw the simple
       random sample of 10 to ensure no bias in our selection of the contracts. We did
       not plan to project the results from the sample.

      Requested and received from USSOCOM electronic contract files for 14 of the
       selected contracts and a printed contract file for the remaining contract. These
       were provided as the official contract files for the contracts selected.

      Interviewed contracting officials and reviewed the contract files to determine how
       USSOCOM had documented and performed its price reasonableness
       determinations for the selected contracts.

      Reviewed all price reasonableness determinations for the basic contracts, contract
       modifications, and task and delivery orders with the exception of contract H9222-
       05-D-0017. Due to the large number of delivery orders involved in this contract,
       we selected a random sample of delivery orders for review based on guidance
       received from the Quantitative Methods and Analysis Division and consulted with
       the DOD IG Office of General Counsel to determine any potential legal issues.



                                           12
Use of Computer-Processed Data
We used computer-processed data from USSOCOM’s Procurement Desktop Defense
system. The Procurement Desktop Defense system processed the contract universe of
procurement contracts awarded or administered by USSOCOM Headquarters during
FYs 2003 through 2007. We used this data to select our 15 contracts. The report did not
make any projections or conclusions based on the universe of contracts.

Use of Technical Assistance
We consulted with personnel from the Quantitative Methods and Analysis Division,
Office of the Deputy Inspector General for Auditing, to select the sample of contracts for
review.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DOD IG
have issued three reports related to contracting at USSOCOM. Unrestricted DOD IG
reports can be accessed at http://www.dodig.mil/audit/reports. Unrestricted GAO reports
can be accessed over the Internet at http://www.gao.gov.

GAO
GAO Report No. GAO-07-620, “An Analysis of the Special Operations Command’s
Management of Weapon System Programs,” June 28, 2007

GAO Report No. GAO-07-745, “Success of Advanced SEAL Delivery System Hinges on
Establishing a Sound Contracting Strategy and Performance Criteria,” May 24, 2007

DOD IG
DOD IG Report No. D-2007-109, “Special Operations Command Governmental
Purchases,” July 9, 2007




                                            13
      Contract Number             Award Date      Contract Value       Award Source      Contract Type           Purpose of Contract

                                    June 24,                                                                          Ammunition
      USZA22-03-C-0038                               $6,933,695          Sole-Source            FFP
                                      2003                                                                             Rounds


                                   October 3,                                                                       Dynamic Optical
      H92222-04-C-0003                              $15,443,300          Competition           CPFF
                                     2003                                                                             Laser Tags


                                   March 31,                                                                          Silent Knight
      H92222-05-C-0013                               $6,816,789          Competition           CPIF
                                    2005                                                                                  Radar

                                    June 13,                                                                      Foliage Penetrating
      H92222-05-C-0016                               $5,003,843          Sole-Source           CPFF
                                      2005                                                                              Radar




14
                                  February 16,                                                IDIQ,                    Infrared
      H92222-05-D-0002                             $125,000,000          Sole-Source
                                     2005                                                   FFP, T&M                Countermeasures

                                   October 6,                                                IDIQ,                Tactical Land Area
      H92222-05-D-0017                             $300,000,000          Competition
                                     2006                                               FFP, T&M, CPFF             Network System
                                                                                                                                         Appendix B. Contracts Reviewed




                                    June 1,                                                  IDIQ,                   Lightweight
      H92222-06-D-0008                              $88,640,000          Sole-Source
                                     2006                                                 FFP, T&M, C              Grenade Launcher


     C = Cost                                    CPIF = Cost-Plus-Incentive-Fee        T&M = Time-and-Materials
     CPFF = Cost-Plus-Fixed-Fee                  FFP = Firm-Fixed-Price                IDIQ = Indefinite-Delivery, Indefinite-Quantity
      Contract Number             Award Date     Contract Value       Award Source      Contract Type           Purpose of Contract

                              December 12,                                               CPIF, FFP, C,               Enhanced
      H92222-07-C-0041                            $137,254,084          Competition
                                 2006                                                       CPFF                  Multi-Mode Radar

                                                                                                                      Combat
                              December 15,                               Limited
      H92222-07-C-0043                              $5,230,000                                 FFP                 Communications
                                 2006                                   Competition
                                                                                                                    Transceivers

                              December 20,                                                  IDIQ,                     Infrared
      H92222-07-D-0007                            $105,000,000          Sole-Source
                                 2006                                                    FFP, T&M, C               Countermeasures
                                                                                                                       System
                                    May 1,                                                  IDIQ,                  High-Frequency
      H92222-07-D-0008                            $422,000,000          Sole-Source
                                    2007                                                 FFP, T&M, C               Radio Systems




15
                                   May 31,                                                  IDIQ,                 Multi-Band Radio
      H92222-07-D-0012                            $440,000,000          Sole-Source
                                    2007                                               FFP, T&M, CPFF                 Program

                                  October 5,                                               IDIQ,                    Psychological
      H92222-07-D-0015                            $260,000,000          Sole-Source
                                    2006                                               T&M, CPFF, FFP              Operations Print
                                                                                                                      Program
                                  October 27,                                              IDIQ,                   Psychological
      H92222-07-D-0017                            $260,000,000          Sole-Source
                                     2006                                              T&M, CPFF, FFP           Operations Broadcast
                                                                                                                      Program
                                                                                                                 Foreign Language
                                   May 31,                                                   IDIQ,
      H92222-07-D-0021                            $250,000,000          Sole-Source                              Interpretation and
                                    2007                                                     FFP, C
                                                                                                                Transcription Service
     C = Cost                                   CPIF = Cost-Plus-Incentive-Fee        T&M = Time-and-Materials
                                                                                                                                        Appendix B. Contracts Reviewed (Continued)




     CPFF = Cost-Plus-Fixed-Fee                 FFP = Firm-Fixed-Price                IDIQ = Indefinite-Delivery, Indefinite-Quantity
Appendix C. Management Comments on the
Finding and Our Responses
U.S. Special Operations Command Comments on the Finding
and Our Response
The Director, Center for Acquisition and Logistics, responding for the Commander of
USSOCOM, provided comments to our draft report. Although not required, the director
provided comments on the finding section of the draft report. Below is a summary of the
director’s comments and our responses. The complete text of USSOCOM’s comments
can be found in the Management Comments section of this report.

USSOCOM Comments on Price Reasonableness Determination for
Commercial Items
The Director, Center for Acquisition and Logistics, partially agreed with our finding on
contract H92222-07-D-0008 and agreed that the contract files lacked sufficient detail in
the BCM in regards to fair and reasonable price. The director stated USSOCOM intends
to review the pricing over the next 120 days to reaffirm and document the reasonableness
of the prices obtained.

Our Response
Although the director partially agreed, the actions USSOCOM will perform are sufficient
to address our concerns about the pricing for contract H92222-07-D-0008.

USSOCOM Comments on Documenting the Price Reasonableness
Determinations
The Director, Center for Acquisition and Logistics, partially agreed with our findings on
contracts H92222-07-D-0015 and H92222-07-D-0017. The director stated the reference
to this part of the finding should have been made to only two contracts instead of three
and USSOCOM could not trace the $365 million referenced to these three contracts. The
director did agree that price reasonableness decisions should have been better
documented. However, the director stated that the electronic filing process was
documented as a weakness in the summer of 2007 during an internal procurement
management review. The director stated that, in FY 2008, the Directorate of Procurement
identified the electronic contract filing process as a material weakness in the Annual
Statement of Assurance. Because of the identified material weakness, the director stated
USSOCOM implemented an electronic filing corrective action plan during the audit.

Additionally, the director stated Headquarters USSOCOM’s Directorate of Procurement
does not rely on one source of information to document fair and reasonable price. The
director stated USSOCOM contracting officers utilize multiple comparisons of pricing as
an element of basing a fair and reasonable price determination. The director restated that
the electronic filing system was identified as a Directorate weakness prior to the DOD IG
visit. The director stated a corrective action plan has been implemented to improve the



                                            16
Directorate of Procurement’s electronic filing process and USSOCOM has established a
comprehensive and consistent system for contract file archival.

The director partially agreed with our finding on contract USZA22-03-C-0038. The
director agreed that the Certificate of Current Cost or Pricing Data was not able to be
located. However, the director stated that the Swedish government representative verbally
provided translation from Swedish to English during numerous telephone conversations,
yet USSOCM failed to request written statements in English from the Swedish
government to document the conversations. The director stated that the Directorate of
Procurement is training the contracting officers to receive and file pertinent file
documentation appropriately.

Our Response
The $365 million referenced in the report includes the three contracts under the
“Documenting the Price Reasonableness Determinations” section and includes
$180 million from contract H92222-07-D-0017, $180 million from contract H92222-07-
D-0015, and $5 million from contract USZA22-03-C-0038. We have revised the report to
identify the $5 million for contract USZA22-03-C-0038. While we do not disagree that
the BCM declared the use of multiple sources for the price reasonableness determination,
USSOCOM did not document the direct labor cost support obtained from the Web sites.
The updated guidance published in SOFARS 5604.8, “Government Contract Files,” and
in the DCG, chapter 4, “Administrative Matters,” is sufficient to address our concerns
about their contract file documentation.

USSOCOM Comments on USSOCOM’s Electronic Contract Files
The Director, Center for Acquisition and Logistics, partially agreed with our finding on
the electronic contract files. The director stated that USSOCOM does not agree that the
official electronic contracting files were not sufficient or complete. The director stated
that USSOCOM does agree that the organization of the contract files, in regards to the
four contracts cited in the report, was difficult for reviewers to ascertain where file
documentation was located.

The director pointed out the Directorate of Procurement has briefed the DOD IG on its
corrective action plan, highlighting the filing system deficiencies and outlining the
cradle-to-grave filing approach contracting officers are now required to follow to
improve the electronic filing process. The director stated their approach involved multiple
initiatives to prevent electronic filing failures. This approach includes a chain-of-custody
method, where the contracting officer cannot accept a contract file until a thorough
review of the contents of the file occurs. The director stated that both live and Web-based
training has improved the current contracting files. In addition, the director presented
SOFARS, part 5604.803, “Contents of Contract Files,” and stated it was revised in
August 2008.

Our Response
We disagree with the Director’s comments that the official electronic contracting files are
sufficient or complete. The report presented seven contracts that did not have a signed


                                             17
BCM and four additional contracts that were missing other required documents in the
contract files. FAR 4.801, “General,” requires that the documentation in the contract files
be sufficient to provide a complete background for informed decisions at each step in the
acquisition process; support for the actions taken; and provide information for reviews
and investigations. These contract files lacked the proper documentation in supporting
the price reasonableness determinations; therefore, they were not sufficient or complete.
Although the director did not agree with this section, we considered the actions as
responsive. The guidance published in SOFARS, part 5604.803, “Contents of Contract
Files,” is sufficient to correct the problems we found.

USSOCOM Comments on Sole-Source Contracts
The Director, Center for Acquisition and Logistics, did not agree with our conclusion on
the sole-source contracts, and requested that we delete this section in the report. The
director stated that this section, on its face, infers that sole-source contracting somehow
affects fair and reasonableness price determinations negatively. The director stated the
use of sole-source or full and open competition has little to do with the proper execution
of a fair and reasonable price determination and, therefore, was outside of the scope of
our audit. The director stated it is the responsibility of the contracting officer to determine
price reasonableness, regardless of the method of procurement. The director stated
USSOCOM complies with the Competition in Contracting Act as implemented in FAR
Part 6 and DFARS Part 206 and has a strong record of achieving its competition goals.
Additionally, the director stated the sole-source contracts to the Alaskan Native
Corporations should be addressed in future legislations and/or regulatory policies and
procedures, instead of this report.

Our Response
We disagree with the director’s comments that the sole-source contracts were beyond the
scope of the audit. Adequate price competition simplifies price reasonableness decisions
but for sole-source contracts, we lose the benefits of the interaction of market conditions.
Thus, it is vital that USSOCOM is able to support that the sole-source contracts prices are
fair and reasonable through other means. However, of the 15 contracts sampled, 10 were
sole-source and 4 of the 10 did not have adequate documentation supporting the price
reasonableness determination. We believe it is imperative for USSOCOM to be aware of
the magnitude of the sole-source contracts reviewed and the value of maintaining
adequate documentation supporting the price reasonableness determination. We did
revise the report and removed the statement related to the three Alaskan Native
Corporations.

USSOCOM Comments on Alpha Contracting Method
The Director, Center for Acquisition and Logistics, did not agree with our conclusion on
the alpha contracting methods, and requested that we delete this section in the report. The
director stated that our report presented no evidence that the lack of written alpha
contracting procedures contributed to any weakness noted in the report with respect to its
fair and reasonable price determination. However, USSOCOM has published guidance
and training on the alpha contracting method to establish more consistency in contract
negotiations. The guidance was codified in SOFARS 567-1(f) and within the DCG.


                                              18
Our Response
We disagree with the director’s comments that the lack of written alpha contracting
procedures does not influence the price reasonableness determination. Alpha contracting
is a process used to negotiate contracts, which impacts the price reasonableness
determination. Without policies and procedures on how to implement alpha contracting
procedures, USSOCOM increases the risk that the prices negotiated are not fair and
reasonable or that the decisions are not adequately documented. Although the director did
not agree with this section, USSOCOM updated SOFARS, part 5607.104(f), and the
DCG, chapter 7, “Acquisition Planning,” to include new guidance on the use of the alpha
contracting method. Thus, we considered the guidance and revised our report to include
the new published alpha contracting guidance.

Additional USSOCOM Comments
The Director, Center for Acquisition and Logistics, provided additional comments
regarding the growth of USSOCOM since FY 2001. The director stated that
USSOCOM’s contracting actions increased 700 percent and contracting dollars increased
570 percent. However, the Directorate of Procurement did not receive additional
manpower authorizations until FY 2007 and did not get the personnel until the end of
FY 2008. The director points out that while this is not an excuse for the document
deficiencies or regulatory noncompliance, it was a contributing factor.

The director stated that today the Directorate of Procurement is nearly 95 percent staffed
and has made many adjustments to improve its negotiation capabilities. These
adjustments include 97 percent of the Directorate’s contract specialists have completed
cost and price analysis and documentation training. There is now a pricing section within
their Mission Support Division of the Directorate of Procurement staff. He stated the
Directorate of Procurement has also hired a pricing analysis intern to assist with future
growth. In addition, there is also increasing onsite presence of the Defense Contract
Audit Agency.

Our Response
We recognize the difficulties USSOCOM has endured between FY 2001 and the end of
FY 2008. We commend USSOCOM’s efforts to update the SOFARS and the DCG to
meet the intent of the FAR and ensure the Government receives a fair and reasonable
price for its acquisitions.




                                            19
United States Special Operations Command Comments




                  Click to add JPEG file




                                 20
Click to add JPEG file




               21
Click to add JPEG file




               22
Click to add JPEG file




               23
                           Final Report
                            Reference




Click to add JPEG file   Revised, Page i, 3,
                         5 and 7




               24
Click to add JPEG file




               25
                           Final Report
                            Reference




Click to add JPEG file




                         Page 3




               26
Click to add JPEG file




               27
                           Final Report
                            Reference




Click to add JPEG file   Page 1




               28
                           Final Report
                            Reference




                         Deleted, Page 8




Click to add JPEG file




               29
                           Final Report
                            Reference




Click to add JPEG file




                         Revised, Page 9




               30
Click to add JPEG file




               31
Click to add JPEG file




               32
